        PUBLIC
       RELEASE


      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

 OAR’s Interagency and Other Special
      Agreements Require Additional
       Improvements for Compliance

  Final Inspection Report No. IPE-10310 / May 1998




      Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                 Final Report IPE-10310
Office of Inspector General                                                                                               May 1998



                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          I.        OAR Is Making Progress Toward Achieving Full Cost Recovery . . . . . . . . . . . . 8

          II.       Despite Some Procedural Changes, Improvements Are Still Needed
                    to Comply with Federal Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                    A.         Some agreements fail to cite applicable legal authorities . . . . . . . . . . . . 10
                    B.         Many agreements lack the appropriate level of approval . . . . . . . . . . . . 11
                    C.         Agreements often have incomplete budget information . . . . . . . . . . . . . 12
                    D.         OAR does not adequately justify agreements . . . . . . . . . . . . . . . . . . . . . 13
                    E.         Termination dates or review periods are not always defined . . . . . . . . . . 17
                    F.         OAR needs to further improve its policies and procedures . . . . . . . . . . . 18

          III.      OAR Lacks a Consistent Policy on Legal Review of Agreements . . . . . . . . . . . 22

          IV.       OAR Should Develop a Central Database to Inventory and Track
                    Agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

ATTACHMENT: Agency response
U.S. Department of Commerce                                                    Final Report IPE-10310
Office of Inspector General                                                                  May 1998



                                   EXECUTIVE SUMMARY

Interagency and other special agreements are mechanisms for federal agencies to define terms for
performing work for others (reimbursable agreements), acquiring work from others (obligation
agreements), or coordinating complementary programs without the transfer of funds (memoranda
of understanding or agreement, also referred to as unfunded agreements). These agreements can
be between Commerce entities; or between one Commerce unit and another federal agency, a
state or local government agency, a university or other educational institution, a not-for-profit
organization, or a private party. They involve a significant amount of federal resources, but are
not normally subject to the same controls as traditional procurement contracts, grants, or
cooperative agreements.

NOAA’s Office of Oceanic and Atmospheric Research (OAR) uses such agreements in pursuit of
several aspects of its mission. In addition, other federal agencies and non-federal organizations
often have similar missions or require information or services from OAR to fulfill their own
unique missions. Agreements are one method for these agencies to formally agree to share
information, provide needed services, or coordinate their programs to optimize the benefits from
each agency’s efforts. If properly monitored and controlled, agreements are necessary and
beneficial to define the roles and responsibilities of each of the parties so that the greatest return
is realized from similar or complementary programs.

This is one report in a series to be issued as part of the Office of Inspector General’s Department-
wide review of agreements. The purpose of our inspection was to evaluate policies, procedures,
and practices being followed at OAR headquarters and field locations in carrying out the
responsibilities related to these agreements. This included determining whether OAR and its
operating units have resolved recommendations made in a 1996 OIG audit report and whether
OAR has improved its preparation of agreements since that report. Overall, we found that OAR
does appropriately use agreements to support its mission. Procedurally, OAR has made some
improvements in how it prepares, reviews, approves, and administers agreements. Additional
changes are still needed to comply with federal, departmental, and agency guidance.

During our review of OAR agreements, we made the following observations:

<      OAR is making progress toward achieving full cost recovery under its reimbursable
       agreements—OAR has taken several actions to address recommendations made in the
       1996 audit report that raised concerns about OAR’s methodology for recovering costs
       incurred during reimbursable work. As directed by NOAA, OAR and the other NOAA
       line offices implemented a time management system in June 1996. In addition, OAR has
       corrected the improper use of overhead rates by ensuring that its laboratories now only
       apply approved overhead rates. OAR is also developing systematic processes to establish
       a valid cost accounting methodology to itemize other reimbursable costs (see page 8).

                                                  i
U.S. Department of Commerce                                                  Final Report IPE-10310
Office of Inspector General                                                                May 1998



<      Despite some procedural changes, improvements are still needed to comply with
       federal requirements—There has been mixed improvement since the 1996 audit in how
       well OAR prepares agreements. OAR still does not (1) consistently cite an applicable
       legal authority, (2) always ensure the appropriate level of approval for agreements,
       (3) include total project costs and/or budget summaries, and (4) always prepare written
       justifications. In addition to following up on these four audit issues, we found that OAR
       agreements do not always include a termination date or review period.

       OAR’s Environmental Research Laboratories program has recently improved its internal
       guidance on agreements that should address some of the deficiencies we discovered. It
       has prepared a checklist for program and/or administrative staff to follow while preparing
       agreements. While practical, we believe that the checklist should be supplemented by
       more thorough policies and procedures for agreements. OAR should also develop a more
       formal method of ensuring that agreements prepared by other parties are complete before
       they are signed (see page 10).

<      OAR lacks a consistent policy on legal review of agreements—We found that a
       relatively small number of OAR agreements receive legal review. Currently, neither the
       Department nor NOAA has any orders or guidelines that establish criteria for when legal
       review of an agreement is required. Because of the lack of written criteria, the offices and
       laboratories within OAR have developed their own informal policies on which
       agreements to send for legal review, ranging from all agreements to no agreements.
       Keeping in mind the potential burden and delays that could be caused by sending all OAR
       agreements for legal review, we believe that formal policies and procedures on legal
       review of agreements should be established (see page 22).

<      OAR should develop a central database to inventory and track agreements—OAR
       currently lacks a central list of all its agreements. Any existing lists are incomplete and
       are not easily sorted by relevant type of information. We believe that a central database
       of agreements would be a useful management and administrative tool. OAR could use
       the information stored in a database to provide input into its strategic planning under the
       Government Performance and Results Act. A central database could provide basic
       information, such as how many agreements exist, what agencies and other parties are
       involved, and total funding through agreements, to help define performance measures and
       demonstrate results. The database could also be used to help administer and maintain
       OAR agreements. By having relevant dates in the system, programs could easily identify
       which agreements are due for renewal, termination, or review (see page 25).

On page 27, we offer a series of recommendations to the Under Secretary for Oceans and
Atmosphere to address our concerns.


                                                ii
U.S. Department of Commerce                                                Final Report IPE-10310
Office of Inspector General                                                              May 1998




In its response to our draft report, NOAA concurred with our findings and recommendations.
The response also indicates that, in some cases, OAR has taken preliminary actions to address
our concerns. We intend to monitor OAR’s progress in implementing these recommendations
and complying with any forthcoming departmental guidance on interagency and other special
agreements.




                                               iii
U.S. Department of Commerce                                                   Final Report IPE-10310
Office of Inspector General                                                                 May 1998



                                       INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of the National Oceanic and Atmospheric
Administration’s Office of Oceanic and Atmospheric Research’s (OAR) management of
interagency and other special agreements. Fieldwork was performed during the period from
August 19, 1997, through October 31, 1997. The inspection was conducted as part of a larger,
Department-wide review of these agreements. In addition, this review was conducted as a
follow-up to our June 1996 audit report, entitled OAR’s Cost Recovery for Sponsored Research
Needs Improvement (STL-7658).

Prior to the issuance of this report, we discussed some of our preliminary findings with the
OAR’s Assistant Administrator and Deputy Assistant Administrator. This inspection was
conducted in accordance with the Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operations, including current and foreseeable problems. Inspections are also
done to detect and prevent fraud, waste, and abuse, and to encourage effective, efficient, and
economical operations. By highlighting problems, the OIG intends to help managers move
quickly to address those identified during the inspection and avoid their recurrence in the future.
Inspections may also highlight effective programs or operations, particularly if they may be
useful or adaptable for agency managers or program operations elsewhere.


                                    PURPOSE AND SCOPE

Interagency and other special agreements are mechanisms for federal agencies to define terms for
performing work for others (reimbursable agreements), acquiring work from others (obligation
agreements), or coordinating complementary programs without the transfer of funds (memoranda
of understanding or agreement, also referred to as unfunded agreements). These agreements can
be between Commerce entities; or between one Commerce unit and another federal agency, a
state or local government agency, a university or other educational institution, a not-for-profit
organization, or a private party. They involve a significant amount of federal resources, but are
not subject to the same controls as traditional procurement contracts, grants, or cooperative
agreements.




                                                 1
U.S. Department of Commerce                                                                 Final Report IPE-10310
Office of Inspector General                                                                               May 1998



We defined interagency and other special agreements as those agreements that are not grants,
cooperative agreements, or traditional procurement contracts.1 For simplicity, we use the term
“agreement” to refer to the various types of interagency or other special agreements within our
scope. Agreements can include memoranda of agreement, memoranda of understanding,
purchase orders that document both parties’ acceptance, or any other document that details the
terms of an agreement and the parties’ acceptance. Agreements can transfer funds from one party
to the other, bind one or both parties to commit funds or resources to a project, or not involve any
resources.

In 1994, we examined agreements for reimbursable work performed by the National
Telecommunications and Information Administration, finding several problems, including more
staff than necessary for its mission because of its over-reliance on reimbursable funding.2 That
same year we issued letter reports to the International Trade Administration and NOAA on their
respective agreements. Our report to ITA cited the fact that it had not provided a complete and
timely accounting of all agreement costs and expenditures to other parties to its agreements.3 In
our report to the NOAA Comptroller, we expressed our concerns about NOAA’s ability to
produce a concise, credible inventory of interagency agreements.4 Then, in 1995 and 1996,
respectively, the OIG reported that the National Marine Fisheries Service and OAR consistently
undercharged for services they provided under agreements.5 Due in part to the concerns raised in
these reports, we began our current Department-wide review of interagency and other special
agreements.


         1
           The Federal Grant and Cooperative Agreement Act of 1978 defines these types of agreements:
Procurement contracts—legal instruments “reflecting a relationship between the United States Government and a
State, a local government, or other [non-federal] recipient when . . . the principal purpose . . . is to acquire (by
purchase, lease, or barter) property or services for the direct benefit or use of the United States Government” (31
U.S.C. § 6303); Grants—legal instruments used when “(1) the principal purpose of the relationship is to transfer a
thing of value to a State or local government or other recipient to carry out a public purpose of support or
stimulation authorized by a law of the United States . . . and (2) substantial involvement is not expected between the
executive agency and the State, local government, or other recipient when carrying out the activity contemplated in
the agreement” (31 U.S.C. § 6304); Cooperative agreements—differ from grants only in that they are to be used
when substantial involvement by the executive agency is expected (31 U.S.C. § 6305).
         2
             NTIA Interagency Agreements, Institute of Telecommunication Sciences, (IRM-5723, January 1994).
         3
             Interagency Agreements Conducted by the International Trade Administration, (IRM-6290, September
1994).
         4
        Preliminary Findings Regarding Inspection Work on NOAA Interagency Agreements, (IRM-6291,
September 1994).
         5
         NMFS Cost Recovery for Sponsored Research Needs Improvement, (STL-6528, May 1995); OAR’s Cost
Recovery for Sponsored Research Needs Improvement, (STL-7658, June 1996).

                                                          2
U.S. Department of Commerce                                                Final Report IPE-10310
Office of Inspector General                                                              May 1998



This is one report in a series to be issued as part of our Department-wide review of agreements.
The purpose of the inspection was to evaluate policies, procedures, and practices being followed
at OAR headquarters and field locations in carrying out the responsibilities related to these
agreements. This included determining whether OAR and its operating units have resolved
recommendations made in a June 1996 OIG audit report and whether OAR has improved its
preparation of agreements since that report. We expanded the scope of the inspection beyond the
determination of OAR’s action on audit report recommendations to include OAR’s policies and
procedures for obtaining legal review of draft agreements and its methods to inventory and track
agreements. We also evaluated substantive issues, such as the relationship of the agreements to
OAR’s mission and whether the agreements are possibly being used to circumvent procurement
or financial assistance processes.

In conducting our review, we (1) determined the number, dollar value, and type of OAR
agreements; (2) analyzed a representative sample of new agreements finalized from June 1996
through September 1997 (99 of 506 total), which included agreements from each major OAR
program with a variety of other parties; (3) evaluated the review, control, and record-keeping
rules and processes used by the Department, NOAA, and OAR; (4) interviewed appropriate
Department, NOAA, and OAR officials in headquarters and the field; and (5) examined pertinent
files and records relating to OAR’s operations and management.




                                               3
U.S. Department of Commerce                                                Final Report IPE-10310
Office of Inspector General                                                              May 1998



                                            BACKGROUND

NOAA’s mission is to describe and predict changes in the earth’s environment, and conserve and
manage wisely the nation’s coastal and marine resources to ensure sustainable economic
opportunities. OAR is the primary research and development unit of NOAA. It conducts and
directs research programs in coastal, marine, atmospheric, and space sciences through its own
laboratories and offices, as well as through networks of university-based programs across the
country. OAR’s work consists of research, modeling, environmental observations, and outreach
efforts that relate primarily to weather, climate, and environmental resources. As shown on the
organizational chart on the following page, OAR’s three major units include the Environmental
Research Laboratories (ERL), the National Sea Grant Program (Sea Grant), and the National
Undersea Research Program (NURP). The following table summarizes the total number of
agreements and how those resources relate to OAR’s total budget.


Table 1: Summary of OAR Resources and Agreements (Fiscal Year 1997)

                         Base           Reimbursable     Obligation     Number of     Staffing
                        Funding         Agreements*      Agreements    Agreements*


 ERL                   $72,847,300         $72,244,900    $2,029,108            405        796


 Sea Grant             $54,300,000         $10,329,061      $476,000             95          17


 NURP                  $12,000,000                 $0     $1,043,000              4           6


 OAR
                        $3,969,000                 $0            $0               2          44
 Headquarters


 Total               $143,116,300          $82,573,961    $3,548,108            506        863


* Includes transfers from other NOAA programs.




                                                   4
U.S. Department of Commerce                                                                 Final Report IPE-10310
Office of Inspector General                                                                               May 1998




                                          Office of Oceanic and
                                         Atmospheric Research

     National Sea Grant                              Environmental                           National Undersea
     College Program                             Research Laboratories                       Research Program


                                    Aeronomy                   Atlantic Oceanographic and
                                    Laboratory                  Meteorological Laboratory

                                  Air Resources                   Climate Diagnostics
                                   Laboratory                           Center

                              Climate Monitoring and           Environmental Technology
                              Diagnostics Laboratory                  Laboratory

                                Forecast Systems               Geophysical Fluid Dynamics
                                   Laboratory                         Laboratory

                          Great Lakes Environmental              National Severe Storms
                             Research Laboratory                       Laboratory

                          Pacific Marine Environmental             Space Environment
                                   Laboratory                           Center




Environmental Research Laboratories

ERL’s mission is to conduct an integrated program of fundamental research, technology
development, and services to improve understanding of the earth and its oceans and inland
waters, the lower and upper atmosphere, and the space environment. There are 12 ERL
laboratories located throughout the country, each specializing in a different aspect of
environmental science, as shown in the above organizational chart.

ERL’s mission is derived in part from a 1963 Bureau of the Budget (now the Office of
Management and Budget) circular, which designated Commerce as the sole civilian provider of
meteorological services and research. Commerce delegated this mandate to NOAA which then
assigned these responsibilities to ERL. The Bureau of the Budget circular has since been
rescinded, but according to a 1991 Federal Register notice, the policy guidance given in that
circular is to be carried out through other mechanisms, with Commerce having the central role
with respect to meteorological services and applied research and development to improve such
services. Commerce is also authorized under 15 U.S.C. § 313 to perform various activities in
support of weather forecasting. These mandates support, in part, the significant amount of
reimbursable work performed by ERL for other agencies.

                                                           5
U.S. Department of Commerce                                                  Final Report IPE-10310
Office of Inspector General                                                                May 1998



Of the three operational units within OAR, ERL has the most agreements, comprising 95.8
percent of the total number of OAR agreements, and 90.0 percent of the funding associated with
those agreements in fiscal year 1997. Performing work for or with others is a significant portion
of ERL’s total research program, as evidenced by the fact that funds received through agreements
accounted for 49.8 percent of ERL’s total budgetary resources. Considering the relative size and
importance of ERL’s reimbursable program, this report focuses predominantly on ERL.

National Sea Grant College Program

The Sea Grant office oversees grants to a network of 29 sea grant colleges, which conduct
education, training, and research in all fields of marine study. Sea Grant also has a specific
mandate to perform certain services for other federal agencies. The National Sea Grant College
Program Act (33 U.S.C. § 1121 et seq.) “encourage[s] other Federal departments, agencies, and
instrumentalities to use and take advantage of the expertise and capabilities which are available
through the national sea grant college program, on a cooperative or other basis.” Sea Grant is
also authorized to “accept funds from other Federal departments, agencies (including agencies
within [NOAA]), and instrumentalities to pay for and add to grants made, and contracts entered
into, by [Sea Grant].”

In fiscal year 1997, Sea Grant entered into 91 agreements to receive and then grant out
approximately $10.3 million under this authority. Most of that funding was received from other
NOAA programs, whereas other federal agencies transferred funds to Sea Grant through just 10
separate interagency agreements. Sea Grant also has four additional agreements that coordinate
the program’s efforts with other federal agencies or other NOAA programs. These agreements
are with the U.S. Department of Agriculture, the Fish and Wildlife Service, the National Weather
Service, and the National Ocean Service’s Coastal Services Center. We did not evaluate these
agreements beyond verifying that they are consistent with Sea Grant’s mission. Our office is
currently conducting a separate review of Sea Grant, including the administration of its grants.

National Undersea Research Program

NURP issues umbrella grants to a network of six regional centers for undersea research and
access to underwater vehicles and facilities. NURP’s institutional existence has no statutory
authority. The present program evolved from the Manned Undersea Science and Technology
Program, created in 1971, and a regional National Underwater Laboratory System, created in
1977. In 1979, the Ocean Science Board of the National Research Council reviewed NOAA’s
underwater research activities and recommended consolidation of these activities, finally
achieved by the creation of NURP in 1980.

NURP only maintains four agreements. Three of these agreements have an approximate annual
value of $1 million, while the fourth agreement does not involve any transfer of funds. Most of

                                                6
U.S. Department of Commerce                                              Final Report IPE-10310
Office of Inspector General                                                            May 1998



NURP’s agreements involve lending out undersea research equipment that NURP grantees use in
their work. While NURP’s agreements were reviewed for this report, NURP received the most
limited review, relative to the other OAR units, as a result of its possession of the smallest
percentage of OAR agreements.




                                              7
U.S. Department of Commerce                                                   Final Report IPE-10310
Office of Inspector General                                                                 May 1998



                           OBSERVATIONS AND CONCLUSIONS

I.     OAR Is Making Progress Toward Achieving Full Cost Recovery

In June 1996, the OIG Office of Audits issued a report entitled OAR’s Cost Recovery for
Sponsored Research Needs Improvement. The report cited OAR’s lack of a time management
system for recording labor costs and charging inadequately supported overhead rates as the
primary causes for OAR’s inability to achieve full research cost recovery. During our present
review, we followed up on OAR’s efforts to address and resolve the issues identified in the 1996
audit report.

Considering the significant amount of reimbursable work performed by OAR, full cost recovery
is a serious concern. OAR is required by federal law, Office of Management and Budget (OMB)
Circular A-25, dealing with user fees, the Department of Commerce Accounting Principles and
Standards Handbook and the NOAA Budget Handbook to achieve full cost recovery for work
performed under agreements. In particular, the Economy Act (31 U.S.C. §§ 1535-1536) requires
federal agencies to recover actual costs for reimbursable work performed for other federal
agencies. Similarly, Commerce’s Joint Project Authority (15 U.S.C. §§ 1525-1526) requires
agencies performing joint projects to apportion full costs on an equitable basis.

An agency’s failure to recover actual costs or to equitably apportion full costs in a joint project
could result in a circumvention of the appropriation process because it could cause the agency to
undercharge or overcharge the sponsoring organization. A performing agency’s appropriated
funds may be improperly (1) depleted to the extent that the labor and other costs that should be
charged to sponsored project agreements are charged to appropriated funds, or (2) augmented to
the extent that an agency receives amounts in excess of its actual costs. Furthermore, the
ordering agency’s appropriation can be improperly augmented if does not reimburse the
performing agency for its full costs.

There are two practical tools that an agency can use to track the costs for which it should be
reimbursed. The first is a time management system (use of time sheets for individual employee
labor recording), which enables agencies to accumulate and then charge actual labor costs rather
than estimated costs. The second is maintaining detailed budget breakdowns of material costs,
equipment, and associated costs. Accurate itemization of costs also helps in calculating proper
overhead rates. The 1996 audit report found that OAR (1) lacked reliable methods for both
tracking actual labor costs and accurately itemizing applicable costs and (2) applied various
unapproved and unsupported overhead rates.

We found that OAR is in the process of achieving full cost recovery by implementing the
recommendations made in the 1996 audit report. As directed by NOAA, OAR and the other
NOAA line offices implemented a time management system in June 1996. Under the new

                                                 8
U.S. Department of Commerce                                                  Final Report IPE-10310
Office of Inspector General                                                                May 1998



system, individual employees are responsible for accurately completing a labor distribution
worksheet for each pay period. We found that the new system has substantially improved OAR’s
ability to achieve full cost recovery.

Furthermore, in December 1997, OAR submitted an action plan to address all other issues
presented in the 1996 audit. First, the action plan stated that OAR corrected the improper use of
overhead rates by five ERL laboratories cited in the audit report. Those laboratories now only
apply approved overhead rates. Second, OAR is currently in the process of developing
systematic processes to fully implement the audit recommendations. In August 1997, OAR
contracted with a private accounting firm to review the current cost accounting methodology
used by ERL’s Forecast Systems Laboratory. The accounting firm concluded that the
laboratory’s current system is auditable, but not in accordance with generally accepted
accounting principles. OAR formed a team to address the accounting firm’s findings and to
develop a proposal to revise the cost accounting methodology. In December 1997, NOAA’s
Office of Finance and Administration approved OAR’s proposal. The new methodology is
expected to be fully implemented by September 1998, when NOAA’s financial management
system is adjusted to reflect the new accounting methodology.

As a result of the 1996 audit report, ongoing OIG follow-up, and OAR’s internal efforts, we
believe that OAR is making progress toward achieving full cost recovery.




                                                9
U.S. Department of Commerce                                                     Final Report IPE-10310
Office of Inspector General                                                                   May 1998



II.    Despite Some Procedural Changes, Improvements Are Still Needed to Comply with
       Federal Requirements

The 1996 audit report found significant deficiencies in OAR’s preparation of agreements in
accordance with legal statutes and departmental policies. Concerns included the lack of
(1) citations to legal authority, (2) appropriate level of approval for agreements, (3) total project
costs and/or budget summaries, and (4) written documentation addressing applicable legal
criteria. There has been mixed improvement in agreements prepared since the 1996 audit. In
addition to following up on those four audit issues, we reviewed agreements to determine
whether a termination date or review period were adequately defined.


A.     Some agreements fail to cite applicable legal authorities

The NOAA Budget Handbook and NOAA Administrative Order 201-105 provide model
agreements that require citation to applicable legal authorities that are used as the basis for
agreements. Legal authorities typically cited in agreements include: Economy Act of 1932 (31
U.S.C. §§ 1535-1536), Joint Project Authority (15 U.S.C. §§ 1525-1526), Intergovernmental
Cooperation Act (31 U.S.C. § 6505), Federal Technology Transfer Act of 1986 (15 U.S.C. §§
3710a-3710d), and general user fee authority under 31 U.S.C. § 9701 and OMB Circular A-25.
Program authority may also exist as a result of congressional action. For example, specific
authority for another federal agency to transfer funds to NOAA may be contained in program
statutes (e.g., the Clean Water Act or the National Sea Grant College Program Act).

We found that OAR does not consistently cite the applicable legal authority in their agreements
and has not demonstrated an acceptable level of improvement in authority citation since the 1996
audit report. That report indicated that 45.4 percent of agreements sampled did not cite a legal
authority. Our sample indicated that 39.4 percent (39 of 99) did not cite a legal authority, a
minimal improvement.

Citation to proper legal authority is important because the type of authority chosen for a
particular agreement affects the treatment of funds transferred under the agreement, including the
timing or disposition of receipts. For example, the Economy Act requires that all payments for
work or services performed be deposited to the appropriation or fund against which the charges
have been made. Under the Joint Project Authority, all payments are deposited into a separate
account that may be used to directly pay the costs of work or services performed, to repay
advances, or to refund excess sums when necessary. All receipts for furnishing specialized or
technical services authorized under the Intergovernmental Cooperation Act may be deposited in
the appropriation or funds from which the cost of providing such services has been paid or is to
be charged. In contrast, fees collected as user fees must be returned to the U.S. Treasury in full


                                                  10
U.S. Department of Commerce                                                                    Final Report IPE-10310
Office of Inspector General                                                                                  May 1998



unless existing statutes specifically provide otherwise. Without an accurate citation, OAR cannot
be certain that they are properly depositing and handling funds associated with agreements.

The type of legal authority used also affects the period of availability for funds transferred under
an agreement. For Economy Act agreements, the period of availability of funds transferred may
not exceed the period of availability of the source appropriation. Accordingly, one-year funds
transferred by the requesting agency must be returned at the end of that fiscal year and
deobligated by that agency, to the extent that the performing agency has not performed or
incurred valid obligations under the agreement. When the agreement is based on some statutory
authority other than the Economy Act, the funds will remain payable in full from the
appropriation initially charged, regardless of when performance occurs. The funds are treated the
same as contractual obligations, subject, of course, to the “bona fide needs” rule6 and to any
restrictions in the legislation authorizing the agreement. Therefore, it is necessary to determine
the correct statutory authority for any agreement, in order to apply the proper obligational
principles.

In several instances, OAR produced a letter that cited a legal authority for a corresponding
agreement. However, we do not believe that this practice is sufficient to comply with
departmental and agency policies. The letter can be easily separated from the agreement, making
it difficult to determine whether a legal citation was associated with a given agreement. Also, a
separate letter with additional terms may not constitute a valid agreement between the parties. In
summary, the current practice of not citing a legal authority directly in all OAR agreements is
inappropriate. OAR needs to provide adequate guidance and oversight to its programs to ensure
that all agreements include a cited legal authority.


B.       Many agreements lack the appropriate level of approval

The 1996 audit report found that only 54.6 percent (83 of 152) of the sampled agreements had an
appropriate level of approval. The audit report also stated that OAR personnel expressed
confusion over the various informal delegations of authority and admitted that they did not know
the appropriate approval procedures. During our inspection, we found that 87.9 percent
(87 of 99) of agreements reviewed were approved and signed by an appropriate official. The
improvement can be attributed in part to a new approval policy. In March 1997, NOAA’s Chief
Financial Officer and Chief Administrative Officer officially delegated signature authority for
reimbursable agreements up to $500,000 to the Director of ERL. The memorandum recognized


         6
          The bona fide needs rule states that a fiscal year appropriation may be obligated only to meet a legitimate,
or bona fide, need arising in, or in some cases arising prior to but continuing to exist in, the fiscal year for which the
appropriation is made.

                                                           11
U.S. Department of Commerce                                                 Final Report IPE-10310
Office of Inspector General                                                               May 1998



that this delegation formalized OAR’s established practices and emphasized that all future
delegations must be approved in writing.

However, the March 1997 delegation only applies to ERL. Sea Grant still does not have a
written policy on the appropriate level of approval. In practice, Sea Grant’s Executive Director,
Director, or other program official, depending on who is available, signs agreements. The NOAA
Budget Handbook states that reimbursable tasks amounting to less than $100,000 may be
delegated for approval at the financial management center level (e.g., Sea Grant or NURP
Directors). Reimbursable tasks amounting to less than $1 million and less than 10 work-years
require approval at the line office level (e.g., the Assistant Administrator for OAR).
Reimbursable tasks amounting to $1 million or 10 work-years or more require approval by
NOAA’s Chief Financial Officer before final acceptance by the line office. Sea Grant is not in
compliance with these criteria.

The NOAA Budget Handbook criteria do not apply to NURP because it does not have any
reimbursable agreements. NURP also does not have a written policy for approvals of its
obligation agreements or memoranda of understanding or agreement. From our review, we
found that either the Deputy Under Secretary of NOAA, the Deputy Assistant Administrator of
OAR, or the NURP Director signs NURP agreements. These levels of approval seem
appropriate, however, based on NOAA Administrative Order 201-105 on memoranda of
understanding or agreement, that states that agreements should be signed at the lowest level to
which the significant responsibilities have been delegated.

OAR should ensure that each agreement receives the appropriate level of approval. The criteria
stated above should be reiterated to all OAR program officials and also provided to new
managers and administrative officials who will have responsibility for agreements. In addition,
OAR should consider seeking additional signature authority delegations for Sea Grant and
NURP.


C.     Agreements often have incomplete budget information

Only 46.5 percent (46 of 99) of agreements sampled in our review included total project costs
combined with acceptable budget summaries. Agreements should include total project costs to
ensure full cost recovery as required by OMB Circular A-25, the Department of Commerce
Accounting Principles and Standards Handbook, and the NOAA Budget Handbook. In addition,
estimating total project costs, including the performing agency’s contributions, and budget
summaries may be necessary to comply with applicable legal authorities. Without an estimate of
a project’s total costs, the agency performing reimbursable work may not be able to adequately
predict whether full costs will be recovered under the Economy Act. If the project is performed
under the Joint Project Authority, the agreement should indicate the contributions of each

                                               12
U.S. Department of Commerce                                                  Final Report IPE-10310
Office of Inspector General                                                                May 1998



organization and demonstrate that the way in which the costs are apportioned is equitable in
relation to the benefits received.

In practice, OAR programs often rely on research proposals to define and justify reimbursable
projects. We found that both ERL and Sea Grant have procedures for constructing proposals. In
addition to a statement of work, the procedures require proposals to include total project costs
and budget summaries. However, ERL only recently began requiring its laboratories to forward
proposals with the formal agreement for review by the officials responsible for signing the
agreement. In addition, the proposals are also not always referenced in the agreements.
Incorporating the proposals by reference and attaching the proposal to the agreement or including
proposal cost information in the actual agreement would greatly improve the quality of OAR
agreements.

When agreements do not identify total project costs, managers and reviewers cannot accurately
determine whether full costs are being recovered or if costs have been apportioned equitably for
joint projects. Also, if total project costs are not identified, an agreement may not receive
approval at an appropriate level within the organization. Accurate, detailed budget summaries
also assist managers and reviewers in assessing an estimate of the full cost of an agreement.
Therefore, OAR officials reviewing agreements should ensure that total project costs and budget
summaries, including OAR’s contributing share, are defined in the agreement. If that
information is provided in the proposal exclusively, OAR should require that the proposal be
expressly incorporated by reference in the agreement.


D.     OAR does not adequately justify agreements

In order to construct a legal agreement, requirements defined in each applicable statutory
authority must be met. Additionally, OMB Circular A-25 requires bureaus to ensure the relevant
criteria are met before citing specific legal authorities that are the basis for their agreements.
These criteria range from ensuring that necessary funds are available, to determining that the
service a government entity will provide does not compete with the private sector.

On the following page, Table 2 lists some relevant legal citations and includes factors that must
be considered when creating agreements.




                                                13
U.S. Department of Commerce                                                       Final Report IPE-10310
Office of Inspector General                                                                     May 1998



Table 2: Summary of Relevant Legal Authorities

        Legal Authority                                    Applicable Criteria
 Economy Act of 1932             a. Funds are available.
 (31 U.S.C. § 1535)
                                 b. The head of the ordering agency decides the order is in the best
                                    interest of the government.
                                 c. The agency filling the order is able to provide the goods or
                                    services.
                                 d. The head of the ordering agency decides whether or not the
                                    ordered goods can be provided as conveniently or cheaply by a
                                    commercial enterprise.
 Joint Project Authority         a. The total costs (sum of costs for all participants in the joint
 (15 U.S.C. § 1525)                 project) for such projects must be apportioned equitably.
                                 b. Joint projects may be performed only if (1) the project cannot be
                                    done at all or as effectively without the participation of all
                                    parties to the project or (2) the project is essential to the
                                    furtherance of a departmental program.
 Intergovernmental Cooperation   a. Agencies may provide specialized or technical services for state
 Act                                or local governments that the agency is especially competent
 (31 U.S.C. § 6505)                 and authorized by law to provide.
                                 b. The services must be consistent with and further the
                                    government’s policy of relying on the private enterprise system
                                    to provide services reasonably and quickly available through
                                    ordinary business channels.
                                 c. Services may be provided only when there is a written request
                                    for those services made by the state or local government. The
                                    requestor must also pay all identifiable costs incurred by the
                                    agency in rendering the service.
 General user fee authority      Agencies may impose a fee for an activity that conveys special
 (OMB Circular A-25)             benefits to its recipient(s) beyond those accruing to the general
                                 public.
 Federal Technology Transfer     a. Agency program missions shall be advanced.
 Act
 (15 U.S.C. § 3710a)             b. Special consideration shall be given to small businesses and to
                                    businesses that agree to manufacture any products in the United
                                    States.


                                                 14
U.S. Department of Commerce                                                                Final Report IPE-10310
Office of Inspector General                                                                              May 1998


Written justifications addressing these factors, although logical, are not always required. The
Federal Acquisition Regulation (FAR) prescribes the policies and procedures applicable to
interagency acquisitions only under the Economy Act. When a government agency purchases a
good or service from another government agency, the requesting agency must prepare a
determination and finding (D&F).7 D&Fs document that “(1) use of an interagency acquisition is
in the best interest of the Government; and (2) the supplies and services cannot be obtained as
conveniently or economically by contracting directly with a private source.”8 Additional matters
must be addressed in the D&F if the Economy Act agreement requires contracting by the
servicing agency.9 According to the FAR, a D&F “shall be approved by a contracting officer of
the requesting agency with authority to contract for the supplies or services to be ordered, or by
another official designated by the agency head.”10 Specifically, a contracting officer ensures that
authorities and funding are adequate.

In addition, to the extent that the Department is engaging in a commercial activity, an economic
analysis in accordance with OMB Circular A-76 must be completed.11 Circular A-76 prohibits
the government from starting or continuing activities to provide a commercial product or service
if the product or service can be procured more economically from a commercial source. To this
end, an agency that wishes to procure goods or services from another federal agency must
prepare an analysis of its requirements to determine that use of another agency’s resources is
necessary because (1) there is no commercially available source, (2) the required goods or
services are a matter of national security or government medical patient care, or (3) procuring
from another agency is the lowest cost solution.

The FAR requirement for requesting agencies to prepare a D&F for Economy Act transfers
appears to be the only regulation that explicitly requires a written justification addressing
relevant legal criteria.12 Yet, for all types of agreements regardless of the legal authority cited,
written justifications, which prove that the legal criteria have been met, represent a good
management practice. Several of the criteria listed in Table 2 are complex, such as the Joint


        7
         Intraagency transactions are addressed in agency regulations (FAR § 17.500(a)).
        8
         FAR § 17.503(a).
        9
         FAR § 17.503(b).
        10
             FAR § 17.503(c).
        11
             FAR § 17.502(c), citing FAR § 7.3.
        12
           In addition to a D&F, the FAR requires that Economy Act agreements include specific provisions, such
as a description of the supplies or services required, delivery requirements, a funds citation, payment terms, and
acquisition authority, as may be appropriate (FAR § 17.504(b)).

                                                        15
U.S. Department of Commerce                                                    Final Report IPE-10310
Office of Inspector General                                                                  May 1998


Project Authority requirement that the project cannot be done at all or as effectively without the
participation of all parties. Without the aid of a written justification, it may be difficult to show
that the criteria for some agreements have been met. In addition, managers or other officials who
review agreements that they did not negotiate need sufficient written documentation to determine
that all relevant criteria have been met.

We found that only limited supporting documentation was included with the agreements to
indicate that OAR personnel considered the factors required to support the agreements’ legal
citations. In fact, no OAR program regularly prepares written justifications for reimbursable
agreements. For those agreements where OAR pays for services from another federal agencies
under the Economy Act, OAR does not consistently prepare D&Fs in compliance with the FAR.
Sea Grant, for example, simply agrees to fund another agency’s project, prepares a procurement
request, and submits that paperwork to NOAA’s Office of Finance and Administration for
processing. No D&Fs are prepared and a contracting officer does not review and approve
agreements before they are executed. Without written justifications that the relevant criteria have
been met, it is not possible to verify whether proper consideration of those criteria has taken
place.

In contrast, we found one agreement that appeared to be appropriately justified and reviewed. In
this case, the Pacific Marine Environmental Laboratory transferred funds to the Federal
Emergency Management Agency and the U.S. Geological Survey for a Tsunami Mitigation
project. In accordance with its standard practice, the Western Administrative Support Center’s
Purchasing Office reviewed the agreement for legal authority and proper signatures from all
parties, and prepared a D&F addressing the Economy Act criteria. The agreement, therefore,
fully complied with the FAR.

While the statutory authorities do not explicitly require written justifications, informal or non-
systematic consideration of the relevant criteria is not sufficient, given the complexity of some of
these issues. With the assistance of NOAA Counsel, OAR should review existing laws,
including those listed in Table 2, and determine what requirements would be better supported by
increased written justifications. Then, OAR should provide adequate guidance and oversight to
its programs to ensure that agreements include appropriate written documentation to prove that
the relevant criteria have been met.




                                                 16
U.S. Department of Commerce                                                            Final Report IPE-10310
Office of Inspector General                                                                          May 1998


E.      Termination dates or review periods are not always defined

We found that 7.1 percent (7 of 99) of the agreements we reviewed did not define a termination
date or review period. The NOAA Budget Handbook requires that reimbursable agreements
include terms stating (1) when and under what circumstances the agreement is to be terminated
and (2) that the agreement must be reviewed periodically, but not less than annually. NOAA
Administrative Order 201-105 requires Assistant Administrators and line office directors to
(1) ensure that each memorandum of understanding or agreement includes mandatory start and
termination dates and (2) periodically review each agreement to determine whether the
agreement should be renewed, amended, updated, or canceled and whether the provisions and
objectives are being met. Defining these relevant dates or time periods is important to ensure
that agreements are properly administered and kept up-to-date.

When the stated performance period is undefined or indefinite, it is difficult to determine
whether the agreement is still valid and whether reassessment of the agreement ever occurred. In
addition, even if a need still exists, as time passes critical features of the project, such as the level
of funding or other resources, may need modification. An ill-defined performance period may
ultimately result in the performance of work that is no longer mission-related, the waste of funds
and personnel, or the inequitable apportioning of project costs.

We found one example where the National Aeronautics and Space Administration (NASA)
transferred $6.3 million to ERL to perform one task under a 1973 memorandum of understanding
between NASA and NOAA, which governs joint satellite programs worth approximately
$172 million a year. While the 1973 agreement states that it remains in effect indefinitely and
may be terminated or modified at any time, it has not been formally updated since it was first
drafted 25 years ago. We understand that NASA and NOAA are reviewing the agreement and
now agree that it needs updating. Given the significant resources committed to the joint satellite
programs and recent OIG criticisms of how the programs are funded,13 a close review of the 1973
agreement is warranted.

With regard to Sea Grant, we found three agreements that were signed in 1977, 1984, and 1987,
respectively. The agreements include provisions which require that they (1) be reviewed
periodically, but not less than annually, and (2) remain in effect until terminated by mutual
agreement or upon adequate notice of either party. However, we found that Sea Grant does not
regularly review these agreements. Although the agreements still relate to valid programmatic


        13
           In two 1997 inspection reports, the OIG found that NOAA transferred large amounts of excess funds to
NASA under the 1973 agreement to avoid having to identify unspent funds as carryover. This action enabled it to
escape the scrutiny such funds receive from the Department, OMB, and the Congress. (Excess Funding in the Polar
Orbiting Satellite Program, OSE-8797-7-0001, March 1997; and Excess Satellite Funding Indicates Need For
Better Financial Controls, OSE-8797-7-0002, September 1997)

                                                      17
U.S. Department of Commerce                                                            Final Report IPE-10310
Office of Inspector General                                                                          May 1998


needs, they may require amendment. In particular, the Fish and Wildlife Service initiated a
review of and recommended changes to its 1977 agreement with Sea Grant, but no action has
been taken by Sea Grant in response. The 1984 U.S. Department of Agriculture agreement
coordinates its Extension Service activities with the local Sea Grant programs and the 1987
National Weather Service agreement authorizes Sea Grant programs to organize weather reports
from mariners. Even though there may still be some value to these programs, they should be
periodically reviewed to determine if changes in circumstances require the agreements to be
updated.

All agreements should have a defined performance period with a stated effective date and when
possible, a specific termination date. For agreements that continue over an extended term, where
it is not feasible to define a termination date, the agreement should have a provision for a
periodic review and amendment by mutual consent of the parties.


F.      OAR needs to further improve its policies and procedures

NOAA stated in its response to the 1996 audit report that the NOAA Office of the Comptroller
would update the NOAA Budget Handbook to include a listing of required legal authorities and
procedures for preparing agreements. As of the date of this report, no applicable changes have
been made to the NOAA Budget Handbook.14 However, we found that ERL is in the process of
updating its internal procedures.

ERL recently updated its policies and procedures for agreements

ERL’s administrative staff recently prepared a checklist to follow while preparing agreements.
The checklist includes basic information about the agreement (such as type of sponsor and period
of performance), substantive justifications, applicable legal authority, strategic plan elements,
budget information, billing basis and cycle, and waiver justification for not seeking advance
funding from non-federal sources. The official preparing an agreement must mark certain boxes
to identify which option in each section applies. Once completed, the checklist will remain on
file with the agreement and serve as an assurance that each of the required elements have been
addressed. This change represents a significant improvement in ERL’s agreements process. If



        14
            During a review of NOAA’s fiscal year 1997 financial statements, auditors found that, among other
things, (1) NOAA programs were conducting work without a current agreement, (2) reimbursable projects were not
being billed according to the terms of the agreements, and (3) NOAA was not consistently collecting funds in
advance for non-federal reimbursable projects. In December 1997, NOAA’s Chief Financial Officer and Chief
Administrative Officer issued a memorandum making changes in reimbursable procedures to correct these
deficiencies. However, these proposed changes did not address other issues identified in other OIG reviews.

                                                      18
U.S. Department of Commerce                                                 Final Report IPE-10310
Office of Inspector General                                                               May 1998


consistently applied and regularly updated, the checklist should improve ERL’s compliance with
federal requirements for agreements.

ERL’s agreements checklist was reviewed by NOAA Counsel, and then implemented in February
1998. The checklist was distributed to all the laboratories and posted on ERL’s intranet.
Although we agree that the checklist is a good tool for researchers, administrative officials, and
supervisors who are involved in preparing or reviewing agreements, the checklist should be
supplemented by a thorough policy on agreements. Existing guidance dealing with other aspects
of preparing agreements is either out-of-date or incomplete. For example, ERL’s April 1993
guidance on obtaining other agency and organization funding support is out-of-date and partially
inaccurate.

In response to the lack of thorough guidance, at least one laboratory, the Forecast Systems
Laboratory, has developed its own comprehensive policy on agreements, including discussions of
legal issues, general strategy, types of agreements, and content of agreements. In addition to
following the new checklist, this type of policy is a necessary resource for officials preparing
agreements, by providing such information as when an agreement is necessary, what level of
approval is required, and suggested language for agreements. The policy, therefore, should
mirror the checklist by providing detailed explanations of each section and any other necessary
information. NOAA Counsel should assist ERL in updating its policy to ensure that it is
complete and accurate.

OAR should consider adopting similar policies and procedures office-wide. Each unit within
OAR, including the Assistant Administrator’s office, prepares or reviews agreements. For those
units that prepare relatively few agreements, an OAR policy could be followed without further
refinement. ERL, on the other hand, should probably continue to have procedures specific to its
operations, considering that it has significantly more agreements and has a more involved
approval process. OAR should also be aware that the Department may soon develop
Department-wide guidance on agreements. We have discussed with Department officials the
possibility of developing a new Department Administrative Order for agreements. OAR should
make any of its internal procedures consistent with this forthcoming departmental guidance.

Agreement negotiation process should be improved

As part of the creation of any new policies and procedures for agreements, OAR should include a
more formal method of ensuring that agreements prepared by other parties are complete before
they are signed by the appropriate NOAA official. As discussed above, we found similar
deficiencies in fiscal year 1997 agreements as the audit report found in agreements from fiscal
years 1993 and 1994. These persistent deficiencies are due in part to the fact that other parties
prepared the agreements and OAR failed to negotiate with the other party to make necessary
changes before agreements were signed.

                                               19
U.S. Department of Commerce                                                 Final Report IPE-10310
Office of Inspector General                                                               May 1998


OAR officials are making some effort to identify missing terms and notify the other parties of
what those terms should be. Currently, OAR prepares a cover letter that is sent to the other party
with the signed agreement. The letter, signed by the OAR official who signed the agreement,
acknowledges receipt and acceptance of a stated agreement and includes several standard items,
such as the amount of the agreement, legal citation, termination date, and billing terms, whether
or not those terms are stated in the agreement. However, this practice does not represent a formal
agreement between the parties, because the additional terms in the letter are not agreed to by the
other party. For example, one NASA agreement specifically stated that “no changes are to be
made to this purchase order without the proper authorization from [Goddard Space Flight Center]
procurement.” But, the ERL cover letter included some additional terms.

We suggest that OAR work with the Office of General Counsel (OGC), NOAA Counsel, and
NOAA management to establish a formal procedure for ensuring that agreements prepared by
other parties are complete. NOAA should develop standard language that is sent to the
sponsoring party when negotiations on a project first begin. The standard language would inform
the other party of basic elements that must be included in any formal agreement, including legal
citation, termination date or performance period, and total project costs. This notice could be
incorporated into any initial correspondence or be presented as a brief standard form. NOAA
could also post this notice on NOAA’s web site for other parties to access electronically. Forms
of this nature, such as those used by the Census Bureau or the Environmental Protection Agency,
would be useful resources for developing a standard form.

As a second step, if a final agreement is still incomplete, NOAA should prepare a formal
modification or amendment that specifies missing terms and is signed by both parties. NOAA
could use the same standard form used during negotiations. To ensure full compliance, NOAA
should not be permitted to begin work on a project until the agreement and any modifications or
amendments needed to include missing terms are signed. Given persistent deficiencies found in
OAR and other NOAA agreements, a procedure that formally notifies other agencies and/or
parties of necessary terms and subsequently modifies or amends incomplete agreements is
essential to ensure future compliance and to protect NOAA from any risks associated with these
deficiencies.

Wide distribution of any new or updated policies and procedures is essential. OAR should
provide training to all current and future administrative staff on how to properly prepare and
process agreements. We found that no specific training on agreements is currently being
provided to OAR staff. OAR should also make all information relevant to preparing and
processing agreements easily accessible by posting documents on NOAA’s intranet. Finally, we
understand that OAR regularly holds annual administrative and management conferences.
Agreements should be a regular topic during these conferences, including the discussion of any
subsequent changes in the law and agency procedures.


                                               20
U.S. Department of Commerce                                                Final Report IPE-10310
Office of Inspector General                                                              May 1998




In its response to our draft report, NOAA concurred with our recommendations to (1) draft
policies and procedures for preparing and processing OAR agreements, (2) provide training to all
appropriate staff, (3) make all relevant information available on NOAA’s intranet, and
(4) regularly address the issue of agreements in future administrative and management
conferences. We agree with NOAA’s comment that these actions are dependent on the
Department issuing regulations on agreements. However, NOAA and OAR should anticipate the
forthcoming guidance by regularly communicating with the Office of the Secretary and taking
any appropriate preliminary actions.




                                              21
U.S. Department of Commerce                                                          Final Report IPE-10310
Office of Inspector General                                                                        May 1998



III.    OAR Lacks a Consistent Policy on Legal Review of Agreements

We found that a relatively small number of OAR agreements receive proper legal review.
According to files kept by NOAA’s Executive Secretariat, only 10 of 506 OAR agreements were
reviewed by OGC in fiscal year 1997.15 If an agreement has not been reviewed by legal counsel,
it may (1) not comply with legislative and regulatory requirements, (2) not cite appropriate
legislative authority, or (3) include terms unacceptable to or unnecessary for a federal agency.
Currently, the Department does not have any orders or regulations that establish criteria for when
OGC review is required before an agreement is signed. An April 1994 OGC memorandum states
that Economy Act and joint project agreements “should” be sent to OGC for review, implying
some level of discretion. OGC officials have stated, however, that they expect to review all
funded and unfunded agreements unless a specific delegation has been granted to a bureau or line
office.

Similarly, there is no written policy on which agreements require NOAA Counsel review. In
practice, OAR programs first submit agreements to NOAA Counsel for review. NOAA Counsel
then forwards those agreements to OGC. OGC has delegated authority to NOAA Counsel to
review only one type of agreement—routine user fee agreements. This delegation, however, was
not transmitted in a formal memorandum or directive. OGC simply informed NOAA Counsel of
the delegation in their comments on one particular user fee agreement. Because NOAA Counsel
only recently implemented a log to track their projects, we were not able to determine how many
of these user fee agreements were reviewed by NOAA Counsel.

Because of the lack of written criteria for which agreements require legal review, actual practices
vary among the offices and laboratories within OAR. Sea Grant does not seek any legal review
of its pass-through agreements, while NURP regularly requests legal review. In ERL, the
practices are even more widespread. Some ERL laboratories send only those agreements that
they have questions about, another laboratory sends no agreements, and yet another laboratory
sends all agreements to legal counsel. There is also a general misunderstanding about what type
of agreements require legal review. While both legal offices agreed that purchase orders between
NOAA and another federal agency should receive legal review, most OAR programs do not send
this type of agreement to either NOAA Counsel or OGC.

Full compliance with OGC’s requirement that all agreements receive legal review would likely
have an impact on the ability of NOAA Counsel and OGC to complete their legal reviews within
a reasonable amount of time. There is no stated policy on how long a legal review should take,
and the actual processing time varies. For the 29 OAR agreements reviewed by OGC since April


        15
        The total number of OAR agreements (506) includes all reimbursable agreements, obligation agreements,
memoranda of agreement or understanding, and large or small interagency purchase orders.

                                                     22
U.S. Department of Commerce                                                                   Final Report IPE-10310
Office of Inspector General                                                                                 May 1998


1994, the median processing time by OGC was 30 days. However, several OAR agreements
took a significant amount of time to review—as long as six months in some cases.

There may be valid reasons for a lengthy legal review, such as disagreements over terms of the
agreement, uncertainty about the funding agency’s appropriations, or overburdened and/or
understaffed agency and departmental counsel offices. Nonetheless, we have found examples
where delays have adversely affected OAR programs. One laboratory does not seek legal review
because they believe that the delay would prohibit them from taking advantage of established
cruise schedules of ships needed to conduct experiments or gather data.

In another example, the Atlantic Oceanographic and Meteorological Laboratory had to cancel an
agreement with the State of New York because after six months of legal review, New York no
longer required the work. In this case, legal review was delayed by staffing changes within
NOAA Counsel and negotiations with New York over a disputed indemnification provision. The
Forecast Systems Laboratory also had to cancel a reimbursable agreement with NASA after a six-
month legal review. That agreement was delayed by discussions with the laboratory, NOAA
Counsel’s higher priorities, and other factors not related to the agreement itself. In both cases,
any legal issues were ultimately resolved, but not in time for the project to proceed. Despite the
advantages of legal review discussed above, OAR program officials expressed general skepticism
about the value and timeliness of legal review and concern about the negative impact a lengthy
delay would have on their programs.

Formal policies and procedures on legal review of agreements are clearly needed. NOAA
Counsel should work with OGC and OAR program officials to establish reasonable criteria for
which OAR agreements must be reviewed by OGC and which must be reviewed by NOAA
Counsel. OGC has already established thresholds for legal review of National Marine Fisheries
Service agreements.16 Some possible criteria for when NOAA Counsel and/or OGC must review
OAR agreements could include those that reach a certain dollar threshold, include irregular terms
and conditions, or involve a private or foreign party. The criteria should also clearly specify
which types of agreements (i.e., interagency purchase orders or joint projects) require NOAA
Counsel and/or OGC review. In order to alleviate some of the concerns about delays caused by
lengthy legal review, the policy should state how much lead time is required to obtain legal
review. The programs must then provide agreements in sufficient time for legal review to be
completed before a project is expected to start. NOAA should also consider including some kind



         16
           The new guidelines state that OGC will review all of the National Marine Fisheries Service’s agreements
except (1) Economy Act agreements where less than $100,000 is being transferred or (2) unfunded agreements with
other federal agencies that are for the period of five years or less. However, if personal property is being transferred
or loaned under an unfunded agreement, OGC review must be obtained. Furthermore, all joint project agreements,
regardless of funding, must continue to be cleared by OGC.

                                                          23
U.S. Department of Commerce                                                 Final Report IPE-10310
Office of Inspector General                                                               May 1998


of mechanism for legal counsel to inform the programs about the status of legal review so that
the programs can anticipate when the legal review will be completed.

In addition to a clear policy on legal review, NOAA Counsel and OGC should develop some
standard language or form agreements for use by the programs. We understand that some form
agreements have been developed in the past. For example, in 1990, NOAA Counsel provided
ERL a prototype agreement for orders from non-federal parties. The NOAA Budget Handbook
and NOAA Administrative Order 201-105 on memoranda of understanding or agreement also
include some standard language, which may be outdated. Pre-approved language that is regularly
reviewed and updated would facilitate the process by making agreements easier to draft and to
review.




In its response to our draft report, NOAA concurred with our recommendation to (1) draft
policies and procedures for obtaining legal review of OAR agreements and (2) develop standard
language or form agreements for use by the programs. The response also indicates that NOAA
has begun preliminary work to implement the recommendation on legal review.




                                               24
U.S. Department of Commerce                                                            Final Report IPE-10310
Office of Inspector General                                                                          May 1998



IV.     OAR Should Develop a Central Database to Inventory and Track Agreements

During our review, we found that OAR lacks a central database or tracking system for all of its
agreements. OAR management does have a spreadsheet that lists only memoranda of
understanding or agreement to comply with the NOAA Administrative Order 201-105
requirement that each line office “maintain a repository of copies of their Line Office
[memoranda of understanding or agreement] and notices of changes or terminations.”17 This list
does not include all reimbursable, obligation, or joint project agreements. Each program within
OAR then tracks its agreements in different ways.

Sea Grant’s budget officer maintains a spreadsheet listing pass-through projects, dollar amounts,
recipients, and relevant dates. Agreements are also summarized in Sea Grant’s operational
handbook that is distributed to all employees and the Sea Grant colleges. NURP, on the other
hand, does not centrally track or file any of its agreements. ERL, having the most agreements,
maintains a database of all its projects, including reimbursable agreements. The database lists
projects by laboratory and by unique task codes. Project title, project leader, sponsor, project
period, and funding information are also included. The ERL database does not include unfunded
and obligation agreements, however. Because ERL headquarters does not maintain a central file
or listing of all agreements, we experienced some difficulty in obtaining a comprehensive list of
agreements and total dollar amounts.

Although OAR management keeps a spreadsheet that lists certain agreements, this method of
tracking agreements is incomplete and not easily sorted by relevant information. A central
database of agreements would be a useful management and administrative tool. The Government
Performance and Results Act requires federal agencies to describe coordination and planning
with other agencies on shared or similar functions and programs. In July 1997, the House
Science Committee criticized Commerce’s strategic plan for failing to adequately discuss
coordination of cross-cutting programs. The Department has since included more information
about external program “linkages” in its strategic plan for 1997-2002. For each strategic theme
(economic infrastructure, science/technology/information, and resource and asset management
and stewardship), the Department describes several linkages with other federal and non-federal
parties that support these strategic themes. OAR could use the database to provide input into
NOAA’s and Commerce’s strategic plans. Basic information, such as how many agreements
exist, what agencies and other parties are involved, and total funding through agreements, could
be used to further develop the strategic plan linkages.




        17
          NOAA Administrative Order 201-105 governs only “memoranda of understanding or agreement”
between NOAA and other organizations, and excludes grants, procurement contracts, cooperative agreements,
cooperative research and development and invention licensing agreements, and reimbursable agreements.

                                                      25
U.S. Department of Commerce                                                 Final Report IPE-10310
Office of Inspector General                                                               May 1998


From an administrative perspective, a central database of agreements would help OAR programs
in administering and maintaining their agreements. By having relevant dates in the system,
programs could easily identify which agreements are due for renewal, termination, or review.
Also, officials could quickly respond to inquiries on particular agreements by accessing the
system by identifying number, project title, or contact name.

A central OAR database should include certain key elements, including project title, parties,
termination date, review date, legal authority, funding information, and contact person or office.
The database should also identify the type of agreement, i.e. memoranda of understanding or
agreement, reimbursable agreement, or obligation agreement. This system could also be used to
establish a document numbering system. Each entry would be assigned a unique number, which
would then be placed on the actual agreement and any related documents. OAR could then better
identify and track the physical documents. Given the large number of OAR agreements and their
importance to achieving OAR’s mission, a comprehensive database of agreements with relevant
information would help management and program officials control and maintain their
agreements.

As we discussed on page 19, we will be making recommendations to the Department in a
separate report. One of our recommendations is the establishment of a Department-wide
database of agreements. We have identified two options for creating a central departmental list
of agreements. First, the Department could develop one standard system or database program
that each bureau can access to add, modify, or delete agreements. Alternatively, each bureau
could maintain its own database that is compatible with requirements specified by the
Department. The Department would define which data elements are required for a centralized
list and then require the bureaus to periodically provide the information electronically to be
uploaded into the central list at the Department level. Whichever approach is selected, OAR
should closely coordinate with the Department to ensure that its agreements system is consistent
and compatible with the forthcoming departmental policy.




In its response to our draft report, NOAA concurred with our recommendation to develop a
centralized database of all OAR agreements. NOAA will formalize requirements for this
database upon receipt of the forthcoming departmental guidance.




                                               26
U.S. Department of Commerce                                                Final Report IPE-10310
Office of Inspector General                                                              May 1998



                                  RECOMMENDATIONS

We recommend that the Under Secretary for Oceans and Atmosphere take the following actions
to:

1.     Draft policies and procedures for preparing and processing OAR agreements that are
       consistent with forthcoming departmental guidance. These policies should include at
       least the following requirements: full cost recovery, citation of legal authorities,
       appropriate level of approval, total project costs, budget summaries, applicable
       justifications, and termination dates and/or review periods. There should also be formal
       procedures to notify other agencies of what terms are required in OAR agreements and to
       modify or amend incomplete agreements.

2.     Once OAR policies and procedures have been finalized, provide training to all
       appropriate current and future staff on how to properly prepare and process agreements.

3.     Make all information relevant to preparing and processing agreements available internally
       through NOAA’s intranet.

4.     Regularly address agreements in future annual administrative and management
       conferences, including any subsequent changes in the law and agency procedures.

5.     In consultation with OGC, draft policies and procedures for obtaining legal review of
       OAR agreements.

6.     Develop standard language or form agreements for use by the programs.

7.     Consistent with forthcoming departmental guidance, develop a centralized database of all
       OAR agreements, including such information as project title, parties, termination date,
       review date, legal authority, funding information, contact person or office, and type of
       agreement. This system can also be used to establish a document numbering system.




                                              27
U.S. Department of Commerce   Final Report IPE-10310
Office of Inspector General                 May 1998



ATTACHMENT: Agency Response
U.S. Department of Commerce   Final Report IPE-10310
Office of Inspector General                 May 1998
U.S. Department of Commerce   Final Report IPE-10310
Office of Inspector General                 May 1998
